’—

No.

/tm

r

! . i

In The
Supreme Court of the United States of America !

s
!i
i!

MICHAEL RAMON OCHOA,
Petitioner, pro se,
v.
Dr. Arthur Levine, et al.,
Respondents.

On Petition for a Writ of Certiorari
To The Pa. Supreme Court at 136 WAL 2019;
The Pa. Superior Court at 328 WDA 2019;
and The Allegheny County, Pa. Civil/Commerce and Complex Litigation Center at
GD-13-011757.

PETITION FOR WRIT OF CERTIORARI

Michael Ramon Ochoa
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
November 07, 2019

1

QUESTIONS PRESENTED
1.

The questions posed in the course of appellate actions at FD-07-000190 were

made cognizable by stipulation of all represented parties.1
Each question should be regarded as if entered here in its entirety.2
2.

Would claims of malpractice, civil conspiracy or 42 Pa.C.S. §8344 Defamation be

irreparably lost per Pa.R.A.P. §313(b) Collateral Orders if this appeal is not heard?3
3.

Were those claims adequately protected within the time allowed by service to the

late, Hon. Ralph J. Cappy from 01-29-08 to 01-20-09?4
4.

Would the underlying criminal complaints or data supporting those claims be

irreparably lost if this appeal is not heard?
5.

Would this perverse outcome further erode Pa. Constitution Article 1§11 or U.S.

Constitution Article IV§1?
6.

Do either 18 U.S.C. §1346 or U.S.C. §1961 provide remedy for the problem of

Thrasymachusl Does the #NewOrganonl
7.

What does the Hon. David Wecht know about this case, de jure? de facto?

8.

Could all of this damage be mitigated by ordering the trial court to hear

04-25-19 Amended Complaint?5
1 See attached Exhibit G. Items of Judicial Notice or https://www.academia.edu/38126093/
Exhibit_G._Items_of_Judicial_Notice
2 See attached Exhibit H. Questions or Aporia or https://www.academia.edu/39906428/
Exhibit_H ._Questions_or_Aporia
3 For definitions of malpractice and civil conspiracy see: Ditch v. Waynesboro Hosp., 917 A.2d 317 (Pa.
Super. 2007); Weaver v. Franklin County, 918 A.2d 194, 202 (Pa.Cmwlth. 2007), and Reading Radio,
Inc. v. Fink, 833 A.2d 199, 212 (Pa.Super. 2003).
4 See attached Exhibit D. Conversations with the Late. Honorable Ralph J. Cappy or https://
www.academia.edu/38638818/Conversations_with_the_Late_Honorable_Ralph_J._Cappy
5 See attached Exhibits E-F or download directly at https://www.academia.edu/
38953832/04-25-19_Amended_Complaint

LISTS OF PARTIES AND RELATED PROCEEDINGS
Contact information for the petitioner is on the cover. The complete list of
respondents is attached as Exhibit A. Defendants at App.37-39, with redacted updates
downloadable at: https://www.academia.edu/38126065/Exhibit_A._Defendants
The 01-23-19 trial court order under appeal here was limited to issues involving:
Defendant 4

Dr. Samuel Westmoreland

Defendant 8

Dr. Anthony Jake Demetris

Defendant 9

Dr. George K. Michalopoulos

Defendant 14

Dr. Arthur Levine

Defendant 16

University of Pittsburgh Board of Trustees

Defendant 17

UPMC Board of Directors

Defendants 2, 3, 4, 5, 6, 7, 8, 9, 14,15,16,17,18,19, 20, 22 have been
represented by a rapidly changing team of counselors who have have yet to identify
their own clients correctly:
Justin M. Gottwald, Pa.I.D. #92847
Katelin J. Montgomery Pa. I.D. #322698
Rebecca Good McBride Pa. I.D. #90623
Steven L. Ettinger Pa. I.D. #316266
Dickie, McCamey & Chilcote, P.C. Pa. firm #067
Two PPG Place, Suite 400
Pittsburgh, PA 15222
A list of all proceedings in state and federal trial and appellate courts, including
proceedings in this Court, that directly arise from the same 250 Root Facts of this case
in this Court are now attached to every significant filing as Exhibit G. Items of Judicial
Notice, which can be found at App.46, with updated .pdf versions linked to the Root
Data at: https://www.academia.edu/38126093/Exhibit_G._Items_of_Judicial_Notice

iii

TABLE OF CONTENTS
Page
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

4

CONCLUSION

5

♦
INDEX OF APPENDICES
Appendix A. Decision of State Court of Appeals Quashing the Appeals
03-25-19 328 Application to Quash Appeal GRANTED

App.l

Appendix B. Decision of State Court of Appeals Denying Rehearing
04-09-19 328 Reconsideration DENIED

App.2

Appendix C. Decisions and Opinions of State Trial Court on Appeal
01-23-19 GRANTED Preliminary Objections of Defendants 4, 8,
9,14, 16, 17...................................................................................... App.3
03-15-19 Reconsideration DENIED............................................. App.4
Appendix D. Decision of State Supreme Court Denying Review
09-16-19 136 WAL 2019 Petition DENIED

App.5

Exhibits Dashboard

App.6

Exhibits A-I

App.7-18

IV

TABLE OF AUTHORITIES6
Pennsylvania Cases
Ditch v. Waynesboro Hosp., 917 A.2d 317 (Pa. Super. 2007)

l

Weaver v. Franklin County, 918 A.2d 194, 202 (Pa.Cmwlth. 2007)

l

Reading Radio, Inc. v. Fink, 833 A.2d 199, 212 (Pa.Super. 2003)

l

Pennsylvania Statutes and Constitution
42 Pa.C.S. §8344 Defamation

l

Pa.R.A.P. §313(b) Collateral Orders

l

Pa. Constitution Article 1§11 Courts to be open

i,2

U.S. Supreme Court Cases
U.S. Supreme Court 12-10508 Ochoa v. Rubin

5

U.S. Statutes and Constitution
18 U.S.C. §1346 Definition of “scheme or artifice to defraud

i, 2

18 U.S.C. §1961 Racketeering influenced and corrupt organization

i, 2

28 U.S.C. §1257(a) State courts; certiorari

1

U.S. Constitution Article IV. Section I. Full Faith and Credit

i,2

6 .pdf versions of this document contain hotlinks to full texts of all citations.

1
sidiR

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgements below.

♦
OPINIONS BELOW
The opinions of the highest state court to review the merits of this case appear
at App.1-2 as Appendices A-B. The orders and opinions of the trial court appear at
App.3-4 as Appendix C.
All related court actions, as well as state and federal law enforcement complaints
and USPS priority mail service records, are included in the Root Data:
https://www.dropbox.com/sh/yvt5jv2dim5fklq/AdENY_UOJt

♦
JURISDICTION
The date on which the highest state court decided this case was 09-16-19.
A copy of that decision appears at App.5 as Appendix D. A petition for rehearing was
not filed. The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Constitutional and Statutory provisions previously presented to this Court
should be regarded as if entered here in their entirety, especially:*
Pa. Constitution Article 1§11. Courts to be open
All courts shall be open; and every man for an injury done him in his lands,
goods, person or reputation shall have remedy by due course of law, and right and
justice administered without sale, denial or delay.
18 U.S.C. §1346. Definition of “scheme or artifice to defraud”
For the purposes of this chapter, the term “scheme or artifice to defraud”
includes a scheme or artifice to deprive another of the intangible right of honest
services.
18 U.S.C. §1961 Racketeering influenced and corrupt organizations
(1) “racketeering activity” means (A) any act or threat involving murder,
kidnapping, gambling, arson, robbery, bribery, extortion, dealing in obscene matter, or
dealing in a controlled substance or listed chemical (as defined in section 102 of the
Controlled Substances Act), which is chargeable under State law and punishable by
imprisonment for more than one year;
Also:
U.S. Constitution Article IV§1 Full Faith and Credit
Full Faith and Credit shall be given in each State to the public Acts, Records,
and judicial Proceedings of every other State. And the Congress may by general Laws
prescribe the Manner in which such Acts, Records and Proceedings shall be proved, and
the Effect thereof.

1 https://www.academia.edU/36286355/U.S.J3upreme_Court_Conversations

3
cJJ^rr

STATEMENT OF THE CASE
The 250 Root Facts of this case are well known to this Court.2
Since 11-07-06 Defendants 8, 9, 14,16,17 have orchestrated a machiavellian
campaign of force, fraud and corruption to silence me about Defendant l’s Root Crimes
as well as systemic corruption and abuse within the Starzl Institute, the University of
Pittsburgh and UPMC.s
These patterns of concealment and systemic institutional abuse have been
repeated in multiple instances throughout the Commonwealth of Pennsylvania since
11-07-06. Out of compassion for the countless victims of a dangerously antiquated
Unified Judicial System, I have herein preserved the truth beyond the reach of
corruption 4
I have done this because in this time of existential peril to the Commonwealth and
the Republic, what is needed is a new model of justice which is grounded in our deepest
traditions while being adaptive to reliable, cost effective and scalable new information
technology and truth-preserving processes.

2 See attached Root Facts or https://www.academia.edu/37105946/Root_Facts compared to 10-18-11
11-5664 Petition for Writ of Certiorari at https://www.academia.edu/
5780500/10-18-ll_ll-5664_Petition_for_Writ_of_Certiorari
3 See https://www.academia.edu/
31582211/ll-21-08_Wall_Street_Journal_Doing_a_Volume_Business_in_Liver_Transplants
4 12-15-16 DHHS OIG https://www.academia.edu/30542556/12-15-16_DHHS_OIG or Exhibit I

4
REASONS FOR GRANTING THE PETITION
As Judge Scalia could have told you, what the Founders didn’t say is often as
important as what they did say. Their most striking omission is that there is no explicit
mention in the U.S. Constitution of the two models of justice in whose images our laws
were framed, Socrates and Jesus. Instead of telling us what to believe about them, they
contrived that any simple, honest and loyal citizen whose rights, property and innocent
children were so threatened by systemic corruption and abuse, should instinctively
follow those two ideal models in speaking truth to power.
In fact, I have demonstrated that there are no powers in any branch of state or
federal government sufficient to silence anyone who is willing to follow this narrow path
despite the personal costs.
That intentional omission now gives me the power of “The Pauper’s Bench.”
So, you can continue to stumble blindly toward Megiddo, or you can take these
simple and effective remedies which have been before you all along:
1.

Decertify the Starzl Institute;

2.

Bring federal racketeering charges against the University of Pittsburgh and
UPMC;

3.

Extend federal witness protections to me and my beloved

and iriDN Ochoa;

4.

Recognize the rights of the victims’ families to compensation as a percentage of
any awards collected against the University of Pittsburgh or UPMC.

5

♦
CONCLUSION
This petition for a writ of certiorari should thus be granted.
Then as I promised the late, Hon Antonin Scalia on 10-24-13:
“Finally, by merely allowing yourselves to be seen looking in my direction, you
will effect immediate, transformative good for all, while long being remembered as just
and wise and merciful.” -10-24.-13 U.S. Supreme Court 12-10508
Terras Irradient!

Michael Ramon Ochoa,
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
Date: November 07, 2019

